18
APPENDIX

1. Court of Appeals Summary Order
2. Court of Appeals Order Denying Rehearing
3. District Court Clerk’s Judgment
4. District Court Memorandum & Order Denying Motion for Reconsideration
5. District Court Memorandum & Order Dismissing the Action

Case 20-62, Document 66-1, 02/23/2021, 3041 /49, Page! ot /

20-62-cv
Tang v. Visnauskas

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1,2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT'S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE
NOTATION "SUMMARY ORDER"). A PARTY CITING TO A SUMMARY ORDER MUST SERVE A
COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit,
held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the
City of New York, on the 23rd day of February, two thousand twenty-one.
PRESENT: JOHN M. WALKER, JR.,
ROBERT D. SACK,
RICHARD J. SULLIVAN,
Circuit Judges.
Hong Tang,
Plaintiff-Appellant,
v.

20-62-cv

RuthAnne Visnauskas, Commissioner
of the New York State Division of
Housing and Community Renewal,
Woody PASCAL, Deputy Commissioner of
the New York State Division of Housing
and Community Renewal,
Defendants-Appellees.

case zu-5'4 Document 66-1, 02/23/2021, 3041 /49, Page2 or /

For Plaintiff-Appellant:

Hong Tang, pro se, San Francisco, CA.

For Defendants-Appellees:

Barbara D. Underwood, Solicitor
General, Jeffrey W, Lang, Deputy
Solicitor General, David Lawrence III,
Assistant Solicitor General, for Letitia
James, Attorney General for the State
of New York, New York, NY.

Appeal from a judgment of the United States District Court for the Eastern
District of New York (Pamela K. Chen, Judge.).
UPON

DUE

CONSIDERATION,

IT

IS

HEREBY

ORDERED,

ADJUDGED, AND DECREED that the district court's judgment is AFFIRMED.
Plaintiff-Appellant Hong Tang, pro se, sued the Commissioner and Deputy
Commissioner of the New York State Division of Housing and Community
Renewal ("DHCR"), asserting due process and equal protection claims pursuant
to 42 U.S.C. § 1983. Tang's claims arose out of an administrative proceeding with
DHCR in which he alleged that he, a subtenant, had not received a copy of his
lease, and in which he indicated that the tenant may have unlawfully sublet the
rent stabilized apartment to him.1 After granting Tang an opportunity to articulate

1 We do not consider Tang's substantive due process daim, or his claim that he was deprived of
a liberty interest without due process, because these daims were raised for the first time on
appeal. See, e.g., Zerilli-Edelglass v. N.Y.C. Transit Auth., 333 F.3d 74,80 (2d Cir. 2003).
2

Case 2U-b2, Document bb-1, U'2l2'd/2W2'\, 3041 /49, Pages or /

his claims at oral argument and leave to amend his complaint, the district court
dismissed the action for failure to state a claim on which relief could be granted.
We assume the parties' familiarity with the underlying facts, the procedural
history of the case, and the issues on appeal.
We review the dismissal of a complaint pursuant to Rule 12(b)(6) de novo.
See Forest Park Pictures v. Universal Television Network, 683 F.3d 424, 429 (2d Cir.
2012). And while we review the denial of a motion for reconsideration for abuse
of discretion, "[w]e generally treat an appeal from a denial of a motion for
reconsideration that largely renews arguments previously made in the underlying
order as bringing up for review the underlying order or judgment." Van Buskirk
v. United Grp. of Cos., Inc., 935 F.3d 49,52-53 (2d Cir. 2019).
A complaint must plead "enough facts to state a claim to relief that is
plausible on its face." Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570 (2007). "A
claim has facial plausibility when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged." Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). Although all
allegations in the complaint are assumed to be true, this tenet does not apply to
legal conclusions. Id. When applying these principles in the context of a complaint
3

Case 2U-62, Document bb-1, 02/23/2021, 3041 /49, Page4 or /

filed by a pro se litigant, we "conduct our examination with special solicitude,
interpreting the complaint to raise the strongest claims that it suggests." Williams
v. Con. Officer Priatno, 829 F.3d 118,122 (2d Cir. 2016) (internal quotation marks
omitted).
I.

Procedural Due Process

To prevail on a procedural due process claim, a plaintiff must (1) "identify
a property right," (2) "show that the state has deprived him of that right," and
(3) "show that the deprivation was effected without due process." Mehta v. Surles,
905 F.2d 595, 598 (2d Cir. 1990) (emphasis omitted). We reject Tang's argument
that DHCR's alleged failure to apply its own procedures created a property
interest in and of itself, because a state or state agency rule that is "purely
procedural . . . does not give rise to an independent interest protected by the
[Flourteenth [Almendment." Fusco v. Connecticut, 815 F.2d 201,206 (2d Cir. 1987);
see also W. Farms Assocs. v. State Traffic Comm'n of Conn., 951 F.2d 469, 472 (2d Cir.
1991) ("[T]he Due Process Clause does not protect against the deprivation of state
procedural rights."). And even if Tang had a protected property interest in the
alleged rent overcharges unlawfully gained by the sublessor, he has failed to
demonstrate that the state deprived him of these funds. In fact, Tang does not
4

Case Z0-b'2, Document b6-1, W2JTd/wn, 3U41 /49, Pageb ot /

allege that the state or DHCR owes him the funds or that the state benefitted from
any alleged rent overcharges.
Tang's procedural due process claim is premised on his allegation that the
defendants failed to comply with the procedures established in DHCR Fact Sheet
#7. He appears to construe this fact sheet as requiring DHCR to resolve disputes
over rent overcharges as part of its administrative duties pertaining to tenant
complaints regarding lease renewals by owners. However, neither the fact sheet
nor the complaint form provided by DHCR suggests that DHCR resolves rent
disputes between tenants and owners. Moreover, Tang did not explicitly claim
rent overcharges; he mentioned only that he was "a possible victim in an 'Illusory
Sublet' situation." Dist. Ct. Dkt. 10-1 at 3. As noted by defendant Deputy
Commissioner Woody Pascal in his administrative decision, rent overcharges
were not relevant to Tang's administrative proceeding with DHCR regarding the
owner's alleged failure to provide a copy of the lease. Accordingly, the district
court correctly dismissed Tang's procedural due process claim.
II.

Equal Protection

The district court correctly determined that Tang's equal protection claim
was untimely. "The statute of limitations on an Equal Protection claim brought in
5

Case 2U-62, Document bb-1, U2/23/2021,3U41 /49, Pageb ot /

New York under 42 U.S.C. § 1983 is three years" and accrues when the plaintiff
"knew or should have known of the disparate treatment." Fahs Constr. Grp., Inc.
v. Gray, 725 F.3d 289, 292 (2d Cir. 2013). Here, Tang's unequal treatment claim
accrued when DHCR issued its final decision on January 26, 2016. Although
Tang's original district court complaint was filed on January 25, 2019, the last day
of this three-year period, his amended complaint was filed after the statute of
limitations had expired and did not relate back to his original complaint. In fact,
Tang's original complaint contained no factual assertions whatsoever regarding
the equal protection claim. See Lehman XS Tr., Series 2006-GP2 by U.S. Bank Nat'l
Ass'n v. GreenPoint Mortg. Funding, Inc., 916 F.3d 116,128 (2d Cir. 2019) ("[E]ven
where an amended complaint tracks the legal theory of the first complaint, claims
that are based on an entirely distinct set of factual allegations will not relate back."
(internal quotation marks omitted)).

As such, the district court properly

concluded that Tang's equal protection claim was barred by the three-year statute
of limitations.
III.

Reconsideration

Reconsideration is "an extraordinary request that is granted only in rare
circumstances," and "will generally be denied unless the moving party can point
6

Case 20-b2, Document b6-l, U2I23/2U21,3U41 /49, Page/ ot /

to controlling decisions or data that the court overlooked - matters, in other words,
that might reasonably be expected to alter the conclusion reached by the court."
Van Buskirk, 935 F.3d at 54 (internal quotation marks omitted). In his motion for
reconsideration, Tang did not cite controlling decisions that the district court had
overlooked, and although he correctly noted that the court had misattributed a
quote from defendant Pascal's administrative decision to the state court judge
presiding over his Article 78 proceeding, that error did not affect the court's
conclusion that he lacked a property interest necessary to state a due process claim.
Accordingly, the district court did not abuse its discretion in denying his request
for reconsideration.

We have considered all of Tang's remaining arguments and find them to be
without merit. Accordingly, we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk of Court

7

case 2U-62, Document /a, U4/22/2U21, auaab/4, Pagei or i

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
22nd day of April, two thousand twenty-one.

Hong Tang,
Plaintiff - Appellant,

ORDER
Docket No: 20-62

v.

RuthAnne Visnauskas, Commissioner of the New York
State Division of Housing and Community Renewal,
Woody Pascal, Deputy Commissioner of the New York
State Division of Housing and Community Renewal,
Defendants - Appellees.

Appellant, Hong Tang, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
f

IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

Case l:19-cv-00508-PKC-PK Document 20 Filed 09/23/19 Page 1 of 1 PagelD #: 291

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

-X
HONG TANG,
Plaintiff,
JUDGMENT
19-CV-00508 (PKC) (PK)
-againstRUTHANNE VISNAUSKAS, Commissioner
of the New York State Division of Housing and
Community Renewal, and WOODY PASCAL,
Deputy Commissioner of the New York State
Division of Housing and Community Renewal,
Defendants.

X
A Memorandum and Order of Honorable Pamela K. Chen, United States District Judge,
having been filed on September 20,2019, dismissing this action for failure to state a claim
pursuant to Fed. R. Civ. P. 12(b)(6); certifying pursuant to 28 U.S.C. § 1915(a)(3) that any
appeal from this Memorandum & Order would not be taken in good faith; and denying in forma
pauperis status for the purpose of an appeal; See Coppedge v. United States, 369 U.S. 438, 44445(1962); it is

ORDERED and ADJUDGED that pursuant to Fed. R. Civ. P. 12(b)(6) this complaint is
dismissed for failure to state a claim; that pursuant to 28 U.S.C. § 1915(a)(3) any appeal from
this Memorandum & Order would not be taken in good faith, although Plaintiff has paid the
filing fee to initiate this action; and that in forma pauperis status is denied for the purpose of an
appeal; See Coppedge v. United States, 369 U.S. 438, 444-45 (1962).

Dated: Brooklyn, NY
September 23, 2019

Douglas C. Palmer
Clerk of Court
By: /s/Tiffanv Campbell
Deputy Clerk

Case l:19-cv-00508-PKC-PK Document 24 Filed 12/10/19 Page 1 of 4 PagelD #: 310

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
■x

HONG TANG,
Plaintiff,
MEMORANDUM & ORDER
l:19-CV-00508 (PKC) (PK)

- against RUTHANNE VISNAUSKAS, Commissioner
of the New York State Division of Housing and
Community Renewal, and WOODY PASCAL,
Deputy Commissioner of the New York State
Division of Housing and Community Renewal,
Defendants.
■x

PAMELA K. CHEN, United States District Judge:
Plaintiff, proceeding pro se, initiated this action on January 25,2019. (Dkt. 1.) Defendants
sought permission to file a motion to dismiss on May 16, 2019 (Dkt. 7), and the Court held oral
argument on August 14, 2019, at which Plaintiff requested, and was granted, permission to file an
“amended complaint”1 (Minute Entry, dated 8/14/19). On September 13, 2019, Plaintiff filed his
Second Amended Complaint (“SAC”), alleging due process and equal protection claims in
connection with Defendants’ handling of Plaintiffs “Illusory Sublet” complaint with the New
York State Division of Housing and Community Renewal (“DHCR”). (See Dkt. 17.) The Court
dismissed the SAC in its entirety. See Hong Tang v. Visnauskas, No. 19-CV-00508 (PKC) (PK),
2019 WL 4575366 (E.D.N.Y. Sept. 20, 2019). On October 10, 2019, Plaintiff moved for
reconsideration. (Dkt. 21.) Although filed after the 14-day period provided for under Local Rule

i

Though referred to at the oral argument as the “amended complaint,” it was in fact
Plaintiff s second amended complaint'
---------------------- —-------1

Case 1:19-cv-00508-PKC-PK Document 24 Filed 12/10/19 Page 2 of 4 PagelD #: 311

6.3, given Plaintiff’s pro se status, the Court has considered, and now denies, that motion for the
reasons set forth below.
“A motion for reconsideration should be granted only when the [party] identifies an
intervening change of controlling law, the availability of new evidence, or the need to correct a
clear error or prevent manifest injustice.” Arutyunyan v. Fields, No. 17-CV-5009 (AMD), 2018
WL 5776534, at *2 (E.D.N.Y. Nov. 2, 2018) (quoting KolelBeth YechielMechil of Tartikov, Inc.
v. YLL Irrevocable Tr., 729 F.3d 99, 104 (2d Cir. 2013)). None of these factors is present here.
First, Plaintiff argues that the Court improperly applied and overlooked the case Mace v.
County ofSullivan. No. 05-CV-2786 (SCR) (GAY), 2009 WL 413503 (S.D.N.Y. Feb. 11, 2009).
However, the Court’s September 20, 2019 Order specifically addressed and properly applied the
relevant finding from Mace, namely, that the “failure to follow proper state procedures in itself...
does not create a cognizable federal due process claim,” and, thus, that the DHCR’s failure to
follow its own procedure was, by itself, insufficient to create a cognizable federal due process
claim. Hong Tang, 2019 WL 4575366, at *3. Plaintiff cannot re-litigate an argument already
addressed, and therefore not overlooked, by the Court.
Second, Plaintiff identifies that the Court’s September 20, 2019 Order mistakenly
attributed the following statement to the Honorable Barbara Jaffe of the Supreme Court of New
York, New York County, as having been made while she presided over his Article 78 Proceeding;
The tenant [Plaintiff] further alleges that he had various communications by email
and in person with the owner, and the owner did not mention that the Rent
Administrator’s [ ] finding; that [the DHCR Fact Sheet] states that, if a complaint
is justified, the owner will be required to recognize the subtenant as the actual
tenant, the illusory prime tenant will be legally responsible to refund all overcharges
collected from the subtenant, and if the subtenant can prove that the owner received
part or all of the overcharges the owner will also be responsible for refunding the
rent overcharges; that the Rent Administrator found that the subtenant had the right
to the renewal lease, and so terminated the proceeding, which was incorrect as the
issue
2

Case 1:19-cv-00508-PKC-PK Document 24 Filed 12/10/19 Page 3 of 4 PagelD #: 312

Dept. 2004[) ] applies to this case; that, despite the owner’s 9/16/14 statement that
the owner did not know of the sublease or of the subtenant, the owner sent an email
to the subtenant on 12/9/14; and that the Rent Administrator did not review or
address this issue....
The instant proceeding was commenced by the subtenant’s (the “tenant” herein)
filing of a Tenant’s Complaint of Owner’s Failure to Renew Lease and/or Failure
to Furnish a Copy of Signed Lease, and the instant proceeding is confined solely to
a determination of said Complaint. The Rent Administrator terminated the
proceeding based upon the fact that the owner and the tenant both submitted copies
of the same executed renewal lease for the term from 6/15/15 to 6/14/16. Because
the subtenant, the tenant herein and now the prime-tenant of the subject apartment,
has received a signed renewal lease, the Rent Administrator properly found that
the matter had been resolved and was correct to accordingly terminate the
proceeding.
Hong Tang, 2019 WL 4575366, at *3 (emphasis in original). Plaintiff correctly points out that
these comments were in fact made by Defendant Woody Pascal in his January 26, 2016 Order and
Opinion. {See Dkt. 17-1, atECF2 7.) However, despite this misattribution, the quote serves only
to illustrate the intended point, namely, that Plaintiffs proceeding, in which he argued that DHCR
failed to properly apply its own rules in denying his overcharge refund request, was correctly
terminated.

Thus, the alleged “clear error” is inconsequential and does not warrant

reconsideration.
Third, Plaintiff argues that the Court made a clear error in finding that his equal protection
claim, as stated in the SAC, did not relate back to his original complaint and was therefore timebarred. However, the Court’s analysis separately assumed that Plaintiffs equal protection claim
was not time-barred and found that the claim still could not survive a motion to dismiss because
of insufficient pleading. See Hong Tang, 2019 WL 4575366, at *4 (“Assuming, arguendo, that

2 Citations to “ECF” refer to the pagination generated by the Court’s electronic docketing
system and not the document’s internal pagination.
^
^—

3

Case l:19-cv-00508-PKC-PK Document 24 Filed 12/10/19 Page 4 of 4 PagelD #: 313

Plaintiffs equal protection claim is not time-barred, it would nevertheless have to be dismissed
for failure to state a claim”). Thus, the Court did not clearly err.
Plaintiffs final argument as to the insufficient pleading of his equal protection claim is
plainly an attempt to re-litigate issues already addressed by the Court.
Accordingly, Plaintiffs motion for reconsideration is denied in its entirety. Although
Plaintiff has paid the filing fee to initiate this action, the Court certifies pursuant to 28 U.S.C.
§ 1915(a)(3) that any appeal from this Memorandum & Order would not be taken in good faith
and, therefore, in forma pauperis status is denied for the purpose of an appeal. See Coppedge v.
United States, 369 U.S. 438, 444-45 (1962). This case remains closed.
SO ORDERED.
/s/ Pamela K. Chen
Pamela K. Chen
United States District Judge
Dated: December 10, 2019
Brooklyn, New York

4

Case l:19-cv-00508-PKC-PK Document 19 Filed 09/20/19 Page 1 of 7 PagelD #: 284

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
•x

HONG TANG,
Plaintiff,
MEMORANDUM & ORDER
1:19-CV-00508 (PKC) (PK)

- against RUTHANNE VISNAUSKAS, Commissioner
of the New York State Division of Housing and
Community Renewal, and WOODY PASCAL,
Deputy Commissioner of the New York State
Division of Housing and Community Renewal,
Defendants.
■x

PAMELA K. CHEN, United States District Judge:
Plaintiff, proceeding pro se, initiated this action on January 25, 2019. (Complaint, Dkt. 1.)
On May 16, 2019, Defendants sought permission to file a motion to dismiss. (Motion for PreMotion Conference, Dkt. 7.) The Court construed Defendants’ pre-motion conference letter as a
dismissal motion and set an expedited briefing schedule. (Scheduling Order, dated 5/24/19.) On
August 14, 2019, the Court held oral argument on Defendants’ motion, during which Plaintiff
requested, and was granted, permission to file an “amended complaint. »i (Minute Entry, dated
8/14/19.) On September 13, 2019, Plaintiff filed his Second Amended Complaint (the “SAC”).
(Dkt. 17.) On September 19,2019, Defendants renewed their request to move to dismiss, this time
as to the SAC. (Dkt. 18.)
Because Plaintiff has been permitted both an opportunity to orally articulate and clarify his
claims and to amend his original complaint, the Court construes Defendants’ initial motion to
dismiss (Dkt. 8), along with their recently filed pre-motion conference letter seeking dismissal of
4-

55 L

second amended complaint.
1

Case l:19-cv-00508-PKC-PK Document 19 Filed 09/20/19 Page 2 of 7 PagelD #: 285

the SAC (Dkt. 18), as a motion to dismiss the SAC and grants that motion. For the following
reasons, this action is dismissed for failure to state a claim under Fed. R. Civ. P. 12(b)(6).
DISCUSSION
In the SAC, Plaintiff advances two claims under 42 U.S.C. § 1983: a due process claim
and an equal protection claim. (SAC at 2-7.) The Court addresses each claim in turn.
I.

Due Process
Plaintiffs due process claim is based on the following.2 In July of 2014, Plaintiff filed an
“Illusory Sublet” claim with the New York State Division of Housing and Community Renewal
(“DHCR”) pursuant to the provisions in DHCR’s “Fact Sheet #7 ‘Sublets, Assignments and
Illusory Tenancies.’” (Id. at 2.) However, in violation of DHCR’s own policies, Defendants only
reviewed the renewal lease portion of Plaintiff s claim and refused to review the overcharge refund
portion. (Id. at 2-3.) Defendants rendered an initial decision on Plaintiffs Illusory Sublet claim—
though only on the lease renewal portion—on June 3, 2015, and rendered a final decision on
January 26, 2016. (Id. at 2.) Plaintiff avers that he has “property interests in being refunded the
rent overcharges since 2007, including the treble damage penalty authorized by the law.” (Id. at
2.) Additionally, Plaintiff states that “Defendants deprived Plaintiff of [his] pre-deprivation due
process right” and that the “failure of Defendants fully to process Plaintiffs claim, enforce the

2 «

At the pleadings stage of a case, the court assumes the truth of ‘all well-pleaded,
nonconclusory factual allegations’ in the complaint.” Durant v. N.Y.C. Housing Auth, No. 12CV-937 (NGG) (JMA), 2012 WL 928343, at *1 (E.D.N.Y. Mar. 19, 2012) (quoting Kiobel v.
Royal Dutch Petrol. Co., 621 F.3d 111, 123 (2d Cir. 2010)). Additionally, because Plaintiff is pro
se, the Court liberally construes his submissions and interprets them “to raise the strongest
arguments that they suggest.” Triestman v. Fed Bureau of Prisons, 470 F.3d 471, 474 (2d Cir.
2006) (quotation and italics omitted). However, the Court notes that it “‘need not act as an
advocarefor”’PlaiTitiff“f7HnjT.-^en/7-l-63-F-Supp.-2d^32723-5-(-S-DNfTY-20GT)(quoting-DavA
v. Kelly, 160 F.3d 917, 922 (2d Cir. 1998)).
2

Case l:19-cv-00508-PKC-PK Document 19 Filed 09/20/19 Page 3 of 7 PagelD #: 286

stated policy and follow [DHCR’s own] procedures violated Plaintiffs right to due process, which
is protected under clearly established law.” (Id at 3.)
“[I]n evaluating what process satisfies the Due Process Clause, the Supreme Court has
distinguished between (a) claims based on established state procedures and (b) claims based on
random, unauthorized acts by state employees.” Rivera-Powell v. N.Y.C. Bd. of Elections, 470
F.3d 458, 465 (2d Cir. 2006) (quotation omitted). Because the due process claim at issue here is
based on DHCR’s failure to apply its own explicitly outlined procedures (SAC at 2-3), Plaintiffs
claim falls in the former category. See Hellenic Am. Neighborhood Action Comm. v. City ofNew
York, 101 F.3d 877, 880 (2d Cir. 1996) (“When the deprivation occurs in the more structured
environment of established state procedures, rather than random acts, the availability of
postdeprivation procedures will not, ipso facto, satisfy due process.” (citing Hudson v. Palmer,
486 U.S. 517, 532(1986))).
Plaintiff fails to state a due process claim because he had access to an adequate post­
deprivation remedy in the form of an Article 78 proceeding.3 In reaching this conclusion, the

3 (See Ex. C to Aff. & Decl. in Supp. of Defs.’ Mot. to Dismiss, Dkt. 10-3 (Plaintiffs
verified Article 78 petition, in the matter assigned Index No. 100373/16 before the Supreme Court
of the New York, New York County, dated March 10, 2016); Ex. D. to Aff. & Decl. in Supp. of
Defs.’ Mot. to Dismiss, Dkt. 10-4 (order of Supreme Court of New York County, dated October 7,
2016, denying Plaintiffs petition and dismissing Plaintiffs Article 78 proceeding); Ex. E to Aff.
& Decl. in Supp. of Defs.’ Mot. to Dismiss, Dkt. 10-5 (order of Supreme Court of New York
County, dated October 13, 2017, denying leave to reargue following dismissal of Plaintiffs
Article 78 proceeding); Ex. F. to Aff. & Decl. in Supp. of Defs.’ Mot. to Dismiss, Dkt. 10-6 (order
of Supreme Court of New York County, dated March 26, 2018, again denying leave to reargue
following dismissal of Plaintiff s Article 78 proceeding).)
For purposes of ruling on a motion to dismiss, “[a] court may take judicial notice of a
document filed in another court not for the truth of the matters asserted in the other litigation, but
rather to establish the fact of such litigation and related filings.” Global Network Commc ’ns, 458
F.3d 150, 157 (2d Cir. 2006) (quotations omitted); see Fed. R. Evid. 201. The Court takes judicial
took place. See Missere v. Gross, 826 F. Supp. 2d 542, 553 (S.D.N.Y. 2011) (“The Court may
3

Case l:19-cv-00508-PKC-PK Document 19 Filed 09/20/19 Page 4 of 7 PagelD #: 287

Court recognizes that the mere availability of an Article 78 proceeding does not preclude a due
process claim. Kraebel v. Comm 'r o/N.Y. State Div. ofHousing & Cmty. Renewal, No. 93-CV4344 (LAP), 2000 WL 91930, at *10 (S.D.N.Y. Jan. 26, 2000) (“[W]hile the existence of Article
78 proceedings may satisfy due process under some circumstances, these proceedings may not be
adequate to redress unconstitutional deprivations effectuated by established state procedure.”
(citations omitted)). In Mathews v. Eldridge, 424 U.S. 319 (1976), the Supreme Court set forth a
three-factor balancing test to determine the extent of process due: (1) the private interest affected
by the official action; (2) the risk of erroneous deprivation of that interest; and (3) the governmental
interest in additional safeguards. Id at 334-45. The balancing of these factors is fact-specific.
Zinermon v. Burch, 494 U.S. 113, 127 (1990).
In this case, Plaintiffs only factual averment in support of his due process claim is that
DHCR failed to properly apply its own rules in denying his overcharge refund request. (SAC at
2-3.) Plaintiff advanced this precise argument before the Honorable Barbara Jaffe of the Supreme
Court of New York, New York County, in challenging the Rent Administrator’s resolution of his
Article 78 petition.

Justice Jaffe specifically addressed Plaintiffs argument regarding his

overcharge refund request, reasoning as follows:
The tenant [Plaintiff] further alleges that he had various communications by email
and in person with the owner, and the owner did not mention that the Rent
Administrator’s [] finding; that [theDHCRFact Sheet] states that, if a complaint is
justified, the owner will be required to recognize the subtenant as the actual tenant,
the illusory prime tenant will be legally responsible to refund all overcharges
collected from the subtenant, and if the subtenant can prove that the owner received
part or all of the overcharges the owner will also be responsible for refunding the
rent overcharges; that the Rent Administrator found that the subtenant had the right
to the renewal lease, and so terminated the proceeding, which was incorrect as the
issue of overcharges had not been resolved; that Thornton v. Baron, 4 AD 258 (1st
also take judicial notice of all documents in the public record, including ... the decisions of the
-i-ri:hat-theT,arties-have-submttted-4n-affidavits-withtheir motion papers.”).
4

Case l:19-cv-00508-PKC-PK Document 19 Filed 09/20/19 Page 6 of 7 PagelD #: 289

Accordingly, Plaintiff’s due process claim is dismissed.

n.

Equal Protection
Assuming, arguendo, that Plaintiff’s equal protection claim is not time-barred,5 it would
nevertheless have to be dismissed for failure to state a claim. To state a class-of-one equal
protection claim, the plaintiff must “allege[] that []he has been intentionally treated differently
from others similarly situated6 and that there is no rational basis for the difference in treatment.”

Harlan Assocs. v. Inc. Vill. ofMineola, 273 F.3d 494,499 (quotation omitted). To survive a motion
to dismiss, a plaintiff must allege facts sufficient to demonstrate that, ‘“compared with others
similarly situated, [he] was selectively treated’” and that this treatment was “motivated by an
intention to discriminate on the basis of impermissible considerations, such as race or religion, to
punish or inhibit the exercise of constitutional rights, or by a malicious or bad faith intent to injure
the person.’” Weinberger v. City ofNew York, No. 17-CV-9998 (JMF), 2018 WL 3996935, at *2
(S.D.N.Y. Aug. 21, 2018) (quoting Zahra v. Town ofSouthold, 48 F.3d 674, 683 (2d Cir. 1995)).

5

Plaintiffs original complaint—filed one day before the statute of limitations was set to
expire on his § 1983 claims—did not allege an equal protection violation. (See generally
Complaint, Dkt. 1.) It appears that Plaintiffs equal protection claim, alleged for the first time in
the amended complaint, does not relate back to the original complaint and is, therefore, untimely:
Under [Fed. R. Civ. P.] 15, the central inquiry is whether adequate notice of the
matters raised in the amended pleading has been given to the opposing party within
the statute of limitations by the general fact situation alleged in the original
pleading. Where the amended complaint does not allege a new claim but renders
prior allegations more definite and precise, relation back occurs.
Slayton v. Am. Express Co., 460 F.3d 215, 228 (2d Cir. 2006) (quotation and citation omitted).
6 “An individual is ‘similarly situated’ when []he is ‘similarly situated in all material
respects to the individuals with whom []he seeks to compare [himjself.’” SagaponackRealty LLC
v. Vill. of Sagaponack, No. 2:17-CV-5277 (DRH) (SIL), 2018 WL 4259988, at *6 (E.D.N.Y.
"Sept. 6720I8)‘(quoting Mdndell~Cty7of3M^/£,^1trF:3d~3'68;_379t2d'Cirr2003)):-------------6

Case l:19-cv-00508-PKC-PK Document 19 Filed 09/20/19 Page 7 of 7 PagelD #: 290

Plaintiff alleges that he “was treated differently in the administrative proceeding and was
subject to ‘reverse [jselective enforcement’[] (Defendants refused to fully enforce the policy and
procedure that are clearly stated in DHCR Fact Sheet #7, Section ‘Elusory Sublets’, due to
Plaintiffs race, national origin, ethnicity, citizenship/immigration status, and tenant (subtenant)
status.” (SAC at 5.) But Plaintiff offers no specific facts to substantiate this conclusion. See
Ashcroft v. Iqbal, 556 U.S. 662,678 (2009) (holding that “threadbare recitals of a cause of action’s
elements, supported by mere conclusory statements,” are plainly insufficient to state a claim).
Accordingly, Plaintiffs equal protection claim is dismissed.
CONCLUSION
For the reasons set forth above, this action is dismissed for failure to state a claim pursuant
to Fed. R. Civ. P. 12(b)(6). The Clerk of Court is respectfully directed to enter judgment and close
this case. Although Plaintiff has paid the filing fee to initiate this action, the Court certifies
pursuant to 28 U.S.C. § 1915(a)(3) that any appeal from this Memorandum & Order would not be
taken in good faith and therefore in forma pauperis status is denied for the purpose of an appeal.
See Coppedge v. United States, 369 U.S. 438, 444-45 (1962).
SO ORDERED.
/s/ Pamela K. Chen
Pamela K. Chen
United States District Judge
Dated: September 20, 2019
Brooklyn, New York

7

